                 Office of Audits
                 Office of Inspector General
                 U.S. General Services Administration

    DATE:               November 7, 2013

    TO:                 Julia E. Hudson
                        Regional Administrator
                        National Capital Region (W)

                        Alfonso J. Finley
                        Regional Commissioner, Federal Acquisition Service
                        National Capital Region (WQ)

                        Thomas E. James
                        Acting Regional Commissioner, Public Buildings Service
                        National Capital Region (WP)

    FROM:               Barbara E. Bouldin
                        Program Director
                        Acquisition Programs Audit Office (JA-A)

    SUBJECT:            Summary of Systemic Procurement Issues within GSA’s National
                        Capital Region
                        Audit Memorandum Number A120171

This memorandum provides the results of a special project within GSA’s National
Capital Region, which we initiated based on recurring procurement issues in the region.
Our objective was to summarize these ongoing issues, reported between fiscal years
(FY) 2007 and 2012, and to examine the underlying cause(s). We focused our scope
on issues reported in the Federal Acquisition Service (FAS) and the Public Buildings
Service (PBS). 1

Background

GSA’s National Capital Region provides support to the Federal Government in the
Washington, D.C., metropolitan area through FAS and PBS. Other staff offices, such as
the Office of Regional Counsel and the Human Resources Division, perform various
operational functions to support the two Services.

FAS procures goods and services on behalf of other government agencies. FAS’s
business lines provide customer solutions for products, services, and
1
    References to FAS or PBS are specific to the National Capital Region, unless otherwise noted.


                                                 1
telecommunications. FAS also assists in the disposal and sale of personal property for
GSA and customer agencies, as well as motor vehicle management. The National
Capital Region is the largest FAS region in terms of number of customers.

PBS acquires space on behalf of the Federal Government through new construction
and leasing, and acts as the landlord for federal properties. PBS divisions are
responsible for the design and construction of owned properties, the establishment of
lease contracts for customer agencies, and the operation and management of federal
office space. The National Capital Region is the largest PBS region in terms of rentable
square feet and direct revenues.

Scope and Methodology

In conducting this special project, we summarized systemic issues occurring in GSA’s
National Capital Region identified by various GSA components from FY 2007 through
FY 2012. To examine the procurement issues, we reviewed Office of Inspector General
(OIG) audit reports and memorandums, OIG investigative cases, 2 Procurement
Management Review (PMR) reports, and FAS and PBS internal review reports related
to procurements in the National Capital Region. To identify trends that may explain the
potential cause(s) of recurring procurement issues, we reviewed financial, staffing,
workload, and organization data for each Service.

Results in Brief

Issues have been identified throughout FAS and PBS for both large and small dollar
value procurements since FY 2007. The procurement process may have been impaired
by weaknesses identified within the internal control structure. As a result, the
effectiveness of the National Capital Region’s operations may have been diminished.
Management needs to address internal control weaknesses to help prevent future
procurement issues, given its responsibility for establishing and maintaining an effective
internal control structure.

Summary of Procurement Issues within FAS and PBS

The reports we reviewed identified contract award, administration, funding, and
documentation issues within FAS and PBS. 3 These issues are not only recurring but, in
many cases, significant. Further, these procurement issues are impacting the ability of
the Services to effectively fulfill their missions. Below are examples of issues identified
by the OIG:

•   FAS awarded a $2.6 billion information technology support task order that was
    protested and eventually canceled. In awarding the task order, FAS incrementally
    funded non-severable services, violating the bona fide needs rule. In addition, an

2
  Hotline complaints to the OIG were not included unless formal investigations were performed and the
claims were substantiated.
3
  All references to reports include work products from audits, investigations, and other internal reviews.


                                                2
    inadequate separation of duties within the procurement team compromised the
    contracting officer’s ability to render independent determinations and ensure Federal
    Acquisition Regulation compliance. Lastly, the contract was missing key elements
    necessary to protect the Government from cost risk.
•   PBS awarded over $194 million in modifications for services with several
    procurement irregularities and a significant breakdown in management controls.
    Specifically, PBS reimbursed the contractor in excess of $10.6 million for services
    already included in the fixed price portion of the contract. In addition, work added to
    the contract was highly favorable to the contractor and contrary to the Federal
    Acquisition Regulation. Further, a lack of oversight and enforcement of contract
    terms resulted in the contractor occupying 15,170 of unauthorized rentable square
    feet valued at $650,000, annually.
•   PBS improperly awarded a not-to-exceed $500,000 contract for pre-design services.
    PBS did not award this contract competitively and did not provide adequate
    justification or obtain proper approval for the contract type used. In addition, the
    contract was awarded before a financial responsibility determination of the
    contractor was completed.              Lastly, the proposed cost of the total
    architect/engineering services work, $14.5 million, risked violating the fee limitation
    for architect/engineer services and exceeding the project's funding.
•   FAS awarded the base year of two American Recovery and Reinvestment Act of
    2009 task orders, for approximately $1.5 million each. In both cases, these
    obligations violated the bona fide needs rule and the Antideficiency Act. 4 In addition,
    FAS did not ensure that the Government received the best price for these task
    orders because it: (1) hindered competition by accepting funds late in the fiscal year;
    (2) relied solely on a flawed Independent Government Cost Estimate to evaluate
    pricing; and (3) shared the task order’s not-to-exceed amount with the contractor.

See Appendix A and Appendix B for additional detail on FAS and PBS procurement
issues, respectively.

Internal Control Weaknesses are a Key Factor in the Procurement Issues

Internal control weaknesses played a significant role in a majority of the National Capital
Region’s procurement issues. Internal control is an integral component of an
organization’s management and includes the plans, methods, and procedures used by
an organization to meet its missions, goals, and objectives. It provides an organization
with reasonable assurance that operations are effective and efficient, financial reporting
is reliable, and the organization is compliant with applicable laws and regulations. 5


4
  In the formal response to these audits, National Capital Region management did not agree with our
findings that these were Antideficiency Act violations or that they were noncurable. In accordance with
our recommendation, GSA requested an opinion from the Department of Justice’s Office of Legal
Counsel (OLC). OLC issued a final opinion on October 22, 2013. On October 31, 2013, GSA advised us
that they accepted OIG and OLC's position that GSA had committed noncurable Antideficiency Act
violations, and were in the process of preparing the required reports in accordance with 31 U.S.C. § 1351.
5
  See Appendix C for more information on Standards for Internal Control.


                                                3
However, internal control weaknesses can impair an organization’s ability to meet its
mission, objectives, and goals. Weaknesses in internal control may have impaired the
National Capital Region’s procurement process and the effectiveness of operations, as
discussed below:

FAS leadership has been in a constant state of flux. Management informed us that
seven different individuals have served as the division director of one division from
December 2006 to September 2012, an average tenure of approximately 10 months.
Four of these individuals served in an acting capacity. In addition, management
experienced difficulty filling other key acquisition leadership vacancies at the branch
chief level. Recognizing these key roles needed to be filled; FAS began to address this
issue in FY 2012. However, there have been challenges outside of the National Capital
Region’s control that have precluded them from resolving the lack of permanent
leadership.

FAS has a shortage of experienced acquisition personnel. Since FY 2009, a
shortage in the acquisition workforce has made workload difficult to manage. For
example, between FY 2008 and FY 2009, one division lost 63 percent of its experienced
acquisition personnel. In addition, a national organizational realignment directed the
transfer of acquisition personnel experienced in simple acquisitions to a division that
handles complex, high-dollar acquisitions. Ultimately, due to the burden of managing its
workload, FAS began transferring work to other FAS regions via a facilitation model. In
some cases, FAS has turned away customers if other regions could not accept the
work.

PBS has experienced a number of reorganizations since FY 2007. Between FY
2007 and FY 2012, there were nine GSA Orders that affected the PBS organization.
Six of these orders transferred responsibilities and/or changed lines of reporting. The
workforce’s ability to effectively perform acquisition responsibilities may be disrupted, as
their focus is frequently shifted to learning to operate in different organizational
structures.

Based on the structure of PBS’s organization, acquisition is not the focus. Within
PBS, acquisition personnel may report to non-acquisition supervisors as the acquisition
function is not separate from service delivery. The prevalence of non-acquisition
personnel supervising the acquisition function may compromise the contracting officer’s
role when conflicting priorities arise.

Data integrity issues exist within FAS and PBS. We encountered issues with the
reliability of information provided by both FAS and PBS which impeded our ability to
perform meaningful analyses. In analyzing FAS staffing data, we found that several
employees were coded to the wrong office. In performing a PBS workload analysis, we
could not use staffing data as the number of reorganizations made it unreliable and the
workload data does not accurately reflect who performed the work.




                                         4
GSA lacks an integrated acquisition system. During this project, we were informed
that data requests are often a resource drain due to inefficiencies in obtaining and
communicating information across the Agency. This is likely due to divisions within
each service maintaining multiple systems to track similar information. For example, we
were informed that PBS offices develop their own methods to track transactions since a
fully integrated system does not exist and data is maintained by multiple systems. FAS
also explained that, due to the current information technology infrastructure,
communicating information within the Service is difficult. Although the absence of
integrated information systems points to a larger issue that GSA is responsible for
addressing, the Region ultimately suffers as it is responsible for communicating
effectively throughout the organization.

FAS and PBS do not frequently conduct risk assessments. From FY 2007 to FY
2012, we found evidence of only one entity-level internal risk assessment for each
Service, indicating that they are not a part of normal operations. Based on the absence
of internal risk assessments, FAS and PBS management may be relying on external
reviews, such as OIG audits and PMRs, to identify risks. However, the OIG and PMR
offices do not review all divisions, which results in some divisions not being assessed. 6

Monitoring efforts by FAS and PBS are not sufficient. Monitoring efforts should
ensure review results are promptly resolved. However, OIG audit reports identified
continuous procurement issues in both FAS and PBS from FY 2007 to FY 2012. In
addition, since 2007, the PMR Division has reviewed FAS four times and PBS five
times. 7 The reviews found similar procurement issues each time indicating that the
corrective actions taken by FAS and PBS have not addressed these issues long term.

Management Comments

Although this memo contains no recommendations and no response was required, NCR
management provided comments, acknowledging our observations. Their response,
included in its entirety as Appendix D, provides ongoing or planned actions to address
the conditions outlined in this memo. We did not test these actions as many occurred
outside the scope of this review and were recently implemented, thus it would be
premature to assess their effectiveness at this time.

Conclusion

Developing and maintaining an effective system of internal control is a fundamental
responsibility of management. Recurring procurement issues within the National
Capital Region demonstrate the need for management to fulfill this responsibility.
Internal control is a means to ensure compliance with applicable laws and regulations
and the efficient and effective use of resources to meet Agency missions. Although it is

6
 The PMR Division reviews procurement practices and procedures of GSA contracting activities.
7
  The PMR Division conducts reviews on a rotating basis with lower performing contracting activities
being reviewed more frequently than higher performing contracting activities. FAS was scheduled to
have a FY 2012 PMR; however, due to FAS resource constraints, the review was delayed to FY 2013.


                                             5
not an absolute solution, internal control can be used to manage risks associated with
programs and operations. In strengthening its internal control structure, management
should establish an environment with integrated control activities that are continually
monitored and periodically assessed. While strengthening the internal control structure
may not fully address all procurement issues, it may assist in preventing future
occurrences and detecting other potential causes.

I would like to thank you and your staff for your assistance during this project. If you
have any questions regarding this audit memorandum, please contact me or any
member of the audit team at the following:

 Barbara Bouldin     Program Director        Barbara.Bouldin@gsaig.gov (202) 273-7371
 Victoria Nguyen     Auditor-In-Charge       Victoria.Nguyen@gsaig.gov (212) 266-3360
 Susan Myers         Auditor                 Susan.Myers@gsaig.gov     (202) 273-7376




                                         6
Appendix A – Federal Acquisition Service Procurement Issues

This appendix presents a summary of FAS procurement issues within the National
Capital Region. We reviewed 12 reports focused on FAS, 8 issued during the period FY
2007 through FY 2012. We summarized report issues into four categories: award,
administration, funding, and documentation. Specific issues identified in at least 25
percent of reports, within each category, are included below.

FAS Procurement Issues

Ten reports identified issues with the award of the base contract, which include but are
not limited to the following:

      •   Pricing (i.e., compromised price reasonableness determination due to poorly
          developed Independent Government Cost Estimates, ceiling prices for time and
          material contracts not always established, and/or an insufficient or missing
          justification for fair and reasonable pricing);
      •   Contract type (i.e., non-advantageous contract type chosen and/or inadequate
          rational for contract type chosen);
      •   Competition (i.e., inadequate time to solicit competition, and/or inadequate
          justification for restricting competition); and
      •   Acquisition planning (i.e., missing or not finalized acquisition plans, acquisition
          plans not updated when major changes occurred, and/or a lack of proper
          approval).

Five reports identified issues with contract administration, which include but are not
limited to the following:

      •   Contract clauses (i.e., modifications not citing an authority or citing inappropriate
          authority); and
      •   Execution of contract modifications (i.e., discrepancies with contract close-out
          and/or inappropriate use of unilateral modifications).

Five reports identified funding issues, which include but are not limited to the following:

      •   Violations of the bona fide needs rule;
      •   Violations of the Antideficiency Act; and
      •   Improper obligation of funds.




8
    We reviewed 4 OIG audit reports, 3 OIG investigative cases, 4 PMR reports, and 1 FAS internal report.


                                                A-1
Appendix A – Federal Acquisition Service Procurement Issues (cont.)

Seven reports identified issues with the documentation of the contract file, which include
but are not limited to the following:

   •   Missing documentation (i.e., Memorandums of Understanding/Interagency
       Agreements, Quality Assurance Surveillance Plans, Contracting Officer’s
       Representative delegations, and/or Determinations and Findings);
   •   Lack of adequate support in the contract file (i.e., lack of detail in Price
       Negotiation Memorandum, inadequate documentation to support the exercise of
       options, and/or memorandum to file supporting the modification was missing
       some key elements to explain the purpose of the modification);
   •   Documents containing erroneous information and/or discrepancies;
   •   Documents missing pertinent information (i.e., statements of work, Determination
       and Findings, and/or award documents); and
   •   Untimely preparation of documents (i.e., Price Negotiation Memorandums and/or
       award documents).




                                       A-2
Appendix B – Public Buildings Service Procurement Issues

This appendix presents a summary of PBS procurement issues within the National
Capital Region. We reviewed 34 reports focused on PBS, 9 issued during the period FY
2007 through FY 2012. We summarized report issues into four categories: award,
administration, funding, and documentation. Specific issues identified in at least 25
percent of reports, within each category, are included below.

PBS Procurement Issues

Twenty-two reports identified issues with the award of the base contract, which include
but are not limited to the following:

    •       Pricing (i.e., lack of or deficient price reasonableness determination and/or award
            amounts being significantly different than the Independent Government Cost
            Estimates);
    •       Competition (i.e., inadequate justification for or inappropriate use of other than
            full and open competition, fair opportunity violations and/or significant reductions
            in scope without revising the solicitation);
    •       Acquisition planning (i.e., acquisition plan requirements were not met, were
            missing proper approvals, and/or were missing); and
    •       Contracts clauses (i.e., did not include appropriate contract clauses).

Twelve reports identified issues with contract administration, which include but are not
limited to the following:

        •    Contracting Officer’s Representatives (CORs) designations (i.e., no COR
             designation, the COR appointed after work began, and/or COR memorandums
             included contradictory information regarding authority);
        •    Davis-Bacon Act compliance;
        •    Execution of contract modifications (i.e., inappropriate use of unilateral
             modifications, inappropriate exercise of options, and/or modifications awarded
             without a Price Negotiation Memorandum);
        •    Contract clauses (i.e., missing clauses, inappropriate clauses incorporated into
             contract, changes to clauses without appropriate modification, and lack of
             enforcement resulted in $6.5 million in lost rent);
        •    Improper payments (i.e., additional payments for services already covered in
             the contract and/or payments for invoices prior to the period of performance);
             and
        •    Scope (i.e., undefined scope of work).



9
 We reviewed 25 OIG audit reports, 3 OIG investigative cases, 5 PMR reports, and 1 PBS internal report.
Due to increased OIG oversight associated with the American Recovery and Reinvestment Act of 2009,
PBS was audited more frequently during the scope period than FAS.


                                             B-1
Appendix B – Public Buildings Service Procurement Issues (cont.)

Ten reports identified funding issues, which include but are not limited to the following:

   •   Improper obligation of funds (i.e., PBS borrowed funds from another task order,
       improperly used the building operations fund, and/or obligations did not meet the
       requirements of the Recording Statute);
   •   Actions exceeded funding; and
   •   Funding documents (i.e., wrong document type was used and/or no approval of
       funding increases).

Fourteen reports identified issues with the documentation of the contract file, which
include but are not limited to the following:

   •   Missing documentation (i.e., technical evaluation board reports, Reimbursable
       Work Authorizations, and/or approved invoice payments);
   •   Lack of adequate support in the contract file (i.e., no support for paying a lessor’s
       funding costs, contract actions, and/or award decisions);
   •   Documents containing erroneous information and/or discrepancies; and
   •   Documentation without signatures (i.e., Independent Government Cost Estimate,
       Reimbursable Work Authorization, and/or Price Negotiation Memorandum).




                                        B-2
Appendix C – Standards for Internal Control

In evaluating internal control, we applied the Government Accountability Office’s
Standards for Internal Control in the Federal Government. It outlines five standards for
internal control: control environment, control activities, information and communications,
risk assessment, and monitoring. These standards provide the basis for evaluating
internal control and establishing a general framework for developing internal control.

Control Environment
The control environment is the foundation for other internal control standards.
Management should set a supportive attitude toward internal control, while providing
appropriate supervision and guidance on proper behavior. Additionally, management
should ensure the organizational structure clearly defines areas of responsibility and
establishes appropriate lines of reporting.

Control Activities
Control activities are an integral part of supporting management directives. Control
activities occur throughout an organization to safeguard and ensure stewardship of
government resources.       These activities are typically policies, procedures, and
techniques. Specific activities include human capital management, proper execution of
contract actions, and workforce accountability.

Information and Communications
Relevant, reliable, and timely communications are necessary for an organization to
manage and control its operations. In order to provide accountability for resources and
make decisions, program managers need operational and financial information that is
both accurate and useable. Effective information technology management is critical in
easily communicating this information throughout the organization.

Risk Assessment
Management should perform risk assessments to identify potential challenges to
meeting objectives. These assessments should consider risks from both internal and
external sources.      Risks can be identified using several methods, including
consideration of findings from audits and other reviews. If risks are identified, analysis
is required to determine significance, likelihood of occurrence, and potential mitigating
actions. Due to constant changes in the operational environment, risk assessment
activities should be continuous.

Monitoring
Monitoring should assess the quality of performance over time and ensure that audit
and review findings are promptly resolved.




                                       C-1
Appendix D – Management Comments




                          D-1
Appendix D – Management Comments (cont.)




                           D-2
Appendix D – Management Comments (cont.)




                           D-3
Appendix D – Management Comments (cont.)




                           D-4
Appendix D – Management Comments (cont.)




                           D-5
Appendix E – Memorandum Distribution

Regional Administrator, National Capital Region (WA)

Regional Commissioner, Federal Acquisition Service, National Capital Region (WQ)

Acting Regional Commissioner, Public Buildings Service, National Capital Region (WP)

Commissioner, Federal Acquisition Service (Q)

Commissioner, Public Buildings Service (P)

Deputy Commissioner, Federal Acquisition Service (Q1)

Deputy Commissioner, Public Buildings Service (PD)

Chief of Staff, Federal Acquisition Service (Q0A)

Chief of Staff, Public Buildings Service (P)

Controller, Federal Acquisition Service Financial Services (BF)

Director, Public Buildings Service Executive Communications (PDC)

Regional Counsel, National Capital Region (LDW)

Director, Management and Oversight Division (H1C)

Audit Liaison, Public Buildings Service (BCP)

Audit Liaison, Federal Acquisition Service - National Capital Region (WQ0A)

Audit Liaison, Public Buildings Service - National Capital Region (BCPA)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)




                                        E-1
